No. 20-163
IN THE SUPREME COURT OF THE UNITED STATES
_________________
BRETT C. LILLEMOE, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all required to be served have been served with copies of the
BRIEF FOR UNITED STATES IN OPPOSITION via email and first-class mail, postage
prepaid, this 30TH day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3893
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 30, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 30, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0163
LILLEMOE, BRETT C.
USA

ALEXANDRA ANASTASIA EKATERINA
SHAPIRO
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40TH FLOOR
NEW YORK, NY 10110
212-257-4880
ASHAPIRO@SHAPIROARATO.COM

